<html>
<title> - DAN R. BROUILLETTE NOMINATION</title>
<body><pre>[Senate Hearing 107-193]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-193

                     DAN R. BROUILLETTE NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 on the

 NOMINATION OF DAN R. BROUILLETTE TO BE ASSISTANT SECRETARY OF ENERGY 
             (CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS)

                               __________

                             JULY 18, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
76-428 PDF                  WASHINGTON : 2001

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel




                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Brouillette, Dan R., Nominee to be Assistant Secretary of Energy 
  (Congressional and Intergovernmental Affairs)..................     6
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     2
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     1
Tauzin, Hon. Billy, U.S. Representative from Louisiana...........     3

 
                     DAN R. BROUILLETTE NOMINATION

                              ----------                              


                        WEDNESDAY, JULY 18, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The committee will come to order. The 
committee has two hearings scheduled this morning. The first is 
on President's Bush's nomination of Dan Brouillette to be the 
Assistant Secretary of Energy for Congressional and 
Intergovernmental Affairs. Immediately following the hearing on 
Mr. Brouillette's nomination, the committee will begin a second 
hearing on energy research and development legislation. Without 
objection, Mr. Brouillette's written statement to the 
committee, his answer to the committee questionnaire, and his 
financial disclosure statements will all be introduced into the 
record.
    Let me call on Senator Murkowski to make any opening 
statement he wants and then we will call on Senators Landrieu 
and Chairman Tauzin to introduce Mr. Brouillette.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Senator Bingaman. I 
appreciate the pronunciation correction. We in Alaska would 
have probably been a little more basic on the Brou side of it 
but nevertheless, I don't want to go into that. That's how we 
would spell it. He is certainly an excellent selection and I 
want to congratulate those that bear some responsibility, 
namely the gentlelady from Louisiana and our good friend, 
Chairman Tauzin. I don't know if this gentleman knows anything 
about duck hunting.
    Representative Tauzin. A little bit.
    Senator Murkowski. Well, then he's had some good training. 
If you can't trust a duck hunter, I don't know who you can 
trust. He certainly will fit into the position of Assistant 
Secretary of Energy for Congressional and Intergovernmental 
Affairs. We feel a little slighted over here, but Senator 
Landrieu is going to have to make up for it because of the long 
association with the House.
    This gentleman had, and he is responsible as I understand 
it, for all congressional and intergovernmental affairs. I 
would emphasize that there is another body other than the 
House. I don't want to go into that at great length because it 
would take up the whole morning. But while at the House he was 
responsible, as I understand it, for energy and environmental 
and health issues, all significant issues in the Department of 
Energy's portfolio. He comes with an association with the late 
Duffy Wall, and we all know his reputation and contribution 
around here. He is a gentleman who is certainly missed, and 
those who associated with him certainly have my high esteem 
because Duffy was an extraordinary gentleman and his 
association with the Alpine Group as well. He has worked on a 
number of issues, including utility deregulation. I think that 
combination of practical experience and good solid Louisiana 
background, which is only perhaps second to Alaska, but I don't 
want to go down that pipeline this morning. The fact that he 
has the support of the Louisiana delegation is good enough for 
me and the strong endorsement of the Administration. I hope 
that we can proceed with his nomination with dispatch and I'm 
very pleased we could have Congressman Tauzin here this morning 
as well as our Senator from Louisiana.
    The Chairman. Thank you very much. Let me start with 
Senator Landrieu to make any introductory statements she wants 
to make and then Chairman Tauzin.

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman and I thank the 
Senator from Alaska for those kind words of support to a 
wonderful nominee. And welcome Dan and your family--the little 
one particularly who is particularly excited about his father's 
nomination this morning. And to his parents that are up here 
from Louisiana. We welcome all of you to the committee. And my 
most able colleague and chairman, Congressman Tauzin, will give 
more detailed remarks, so I will be very brief--only to say 
that Dan, you have my full and complete support and 
confidences. It was clear that your work with Congressman 
Tauzin in helping to draft some of the most important pieces of 
legislation that have come to Congress and through Congress in 
the last couple of years in the telecommunications side that 
you are most able to handle complicated, difficult work and do 
it well. Your tenure was marked by very many high achievements 
and several landmark pieces of legislation in that area. In 
addition to the battles that he waged so ably on behalf of this 
Congressman and many of our colleagues, he also, I want to 
commend to my colleagues, he was a tank commander and his 
performance in the service as a tank commander in one of the 
Nation's most decorated line units in the Army from 1982 to 
1987. So, his experience on Capitol Hill, as well as his 
experience in and with our military, I think, completely arms 
him for the task that is before him. So, I want just to honor 
again his family, his four children, Julia, Danielle, Stephen 
and Samuel. His wife, Adrienne, is also with us, and his 
parents, Ronald and Deanna are here. I welcome them and I am 
confident that Dan possesses the necessary ability, temperament 
and experience to service our country well. Congratulations.
    The Chairman. Chairman Tauzin, why don't you go right 
ahead.

                STATEMENT OF HON. BILLY TAUZIN, 
               U.S. REPRESENTATIVE FROM LOUISIANA

    Representative Tauzin. Mr. Chairman, thank you. This is our 
first chance to officially congratulate you on your 
chairmanship and to signify officially again what we have done 
privately and that is to assure you and your Senate colleagues 
the close cooperation of our House Energy and Commerce 
Committee and the vital work we will do this year on energy.
    But I am here on a much more pleasant and personal matter 
this morning. And I say personal matter because Dan Brouillette 
is not just an extraordinary public servant, but he is a close, 
personal friend. When I was a young lad, I got invited to come 
to Washington, D.C. by a young man who is now a circuit court 
of appeals judge in Louisiana, Randy Parreau, who was then an 
assistant to then-Congressman Pat Caffrey. Mary, you might 
remember Pat from New Iberia, one of my predecessors. Randy 
asked me to come to Washington to get confirmed to practice 
before the U.S. Supreme Court, which would be a high honor. And 
so I traveled to Washington back then from Louisiana in my 
double knit suit and met Randy who was in a double knit suit 
and we showed up at the Supreme Court building with all our 
documents ready to get sworn into the Supreme Court. Randy was 
handed a paper that contained the words of introduction which 
basically said, Mr. Chief Justice, members of the Supreme 
Court, I present to you the Honorable Billy Tauzin. He is 
licensed to practice, et cetera, all the credentials. Randy 
read it once and said, I got it, and threw it away. He had it 
memorized. And we walked into the chamber. It happened to be 
the first day of the Burger court and Chief Justice Burger and 
the entire court were assembled. It was opening day of the 
session--the most austere, most intimidating room I've ever 
been in and every Philadelphia lawyer and New York lawyer was 
there in tux and tails with their sons and daughters to get 
them sworn into the Supreme Court. And Randy and I were 
standing in our country double knit suits there, in complete 
awe of this operation, and they called upon him and he 
completely blew it. He forgot his line; he forgot what he was 
supposed to say and I'll never forget his introduction because 
it was unique in the annals of the Supreme Court. In very 
broken and kind of nervous voice, he said Mr. Chief Justice and 
members of the Supreme Court, I present to you Wilbur J. Tauzin 
II. He's a good guy.
    [Laughter.]
    Representative Tauzin. Chief Justice Burger, they say 
smiled the only smile he smiled in the years on the Supreme 
Court. And on that criteria, I was licensed and introduced to 
practice before the U.S. Supreme Court. I'm tempted to do that 
today. I'm tempted to tell you Dan Brouillette is a good guy 
because he is. But I want to illustrate that quickly for you. 
You have his vitae sheets. You see the beautiful family he has 
and you can see from the background of his service to our 
country as a tank commander and, by the way, he looked good in 
a tank helmet, in actually one of the most decorated units he 
served as a drill sergeant in the Army Reserve in South 
Carolina, the great work he did introducing our young men and 
women to the honor of serving our country.
    But I thought I would illustrate for you the quality of 
this nominee very quickly. All of us who serve up here have the 
privilege of meeting young people in the service of our 
congressional staff and Senate staffs. We are very proud of 
those people. They come to us from home; they come us from this 
community; they come from around the country. Dan happened to 
have his roots in Louisiana. He came to our office as an 
intern, and worked his was up to head of our legislative staff. 
I will never forget when we first came to review him for a 
position in our office and my chief of staff told me that she 
recommended Dan for permanent assignment and we talked about 
salary, and I said, well, I think you need to hire him, and we 
need to give him a good boost to encourage him. And she said, 
you better give him a good boost, because they've offered them 
three times what you're paying him and he's turn it down. He 
wants to work for you. That is his character. But here it is 
perhaps more succinctly.
    So, we bring these young people to Washington and they 
serve our country and they work incredibly long hours. And they 
pass up financial opportunities on this Hill right and left to 
stay with us as Dan did so many times. And then they eventually 
move on and we're so excited and pleased and happy for them 
when they move to some other work in life, as Dan did. He moved 
on to practice off the Hill with Duffy Wall and Associates. And 
then every now and then one of them calls us up and says, 
Congressman, Senator, I would like to get a job somewhere else. 
I've got an application in with the Department of Government or 
I've got an application in with a law firm. Or I have an 
application in. Could you recommend me? Well, that happens a 
lot and we recommend young men and women for different 
positions as they move on. I got a very different call from Dan 
Brouillette. Dan called me to say--he always called me boss. 
Boss, he said, I have a problem. I said, what's your problem? 
He said the White House is after me to come to work for the 
Department of Energy and I said, that is a problem, Dan. I know 
how well you're doing; I know how your young family is excited 
about how well you're doing in the private sector, and coming 
back to public service would be quite a sacrifice. That is a 
problem for you. He said, well help me because they're pushing 
hard on me and they want me to come real bad. So, he came and 
we counseled and I advised him and he resisted. And the White 
House called me up and asked me if I would please prevail upon 
him.
    What I'm telling you is that here is a young man who was 
not seeking my help in getting another job. Here was a young 
man seeking my counsel because he was desired for this job so 
adamantly by the White House that they were calling me and 
asking me to encourage him to consider the position. I guess 
what I'm telling you is he is a special person. He is an 
extraordinary and special individual. For Dan Brouillette, 
honor is not just a word. It's a way of life. For him, loyalty 
is not just an asset. It's a body appendage and 
conscientiousness is not just, again, an asset for him. It is a 
lifestyle.
    This is an extraordinary young man. The Government of the 
United States is fortunate that he yielded to all of these 
requests to consider employment with the Department of Energy. 
The Department of Energy, this Government, this committee, as 
well as mine, are going to be extraordinarily well served 
because he is there assisting us all in making the right policy 
for our country. He understands public service enough to know 
that occasionally you have to sacrifice for it. And he is doing 
that, I think. And he is putting his family at some sacrifice 
in order to come back into public service.
    Mr. Chairman, I think the least we can do is honor his 
commitment with a speedy confirmation. I present him to you, 
along with my dear colleague Mary Landrieu, as one of the 
better products Louisiana has every produced. And I can tell 
you unequivocally the best product my office has ever produced. 
Mr. Chairman, I commend him to you.
    The Chairman. Well, thank you very much. Thank you for your 
strong endorsement and Senator Landrieu for her strong 
endorsement. Why don't we get Dan to come up now.
    Mr. Brouillette, let me first ask you to stand and raise 
your right hand so that I can put you through this swearing-in-
statement we require of all nominees. Do you solemnly swear 
that the testimony you're about to give to the Senate Committee 
on Energy and Natural Resources shall be the truth, the whole 
truth, and nothing but the truth?
    Mr. Brouillette. I do.
    The Chairman. You may be seated. Let me ask you the three 
questions we put to all nominees who come before the committee. 
First, will you be available to appear before this committee 
and other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Mr. Brouillette. I will.
    The Chairman. The second question. Are you aware of any 
personal holdings, investments or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Mr. Brouillette. I am not aware of any conflicts, Mr. 
Chairman.
    The Chairman. The third question. Are you involved or do 
you have any assets held in a blind trust?
    Mr. Brouillette. I do not.
    The Chairman. Thank you very much. If you would like to 
introduce your family at this point, we would be glad to know 
of their presence.
    Mr. Brouillette. I would love to. Joining me today is my 
mom and dad, Ronald and Deanna; my four kids, Danielle, 
Stephen, Julia and Sammy outside in the hallway, having a 
blast, and my lovely wife, Adrienne. And I have a lot of 
friends in the audience as well. I won't introduce any of them 
but I just want to say thanks to all of them for showing up.
    The Chairman. We welcome all of you here to the committee. 
We usually clap for family members at this point, so I guess we 
should do that.
    [Applause.]
    The Chairman. Why don't you go ahead with any opening 
statements you would like to make and then we may have some 
questions.

   TESTIMONY OF DAN R. BROUILLETTE, NOMINEE TO BE ASSISTANT 
   SECRETARY OF ENERGY (CONGRESSIONAL AND INTERGOVERNMENTAL 
                            AFFAIRS)

    Mr. Brouillette. Alright, Mr. Chairman. Thank you, and I am 
honored for the opportunity to appear before you today 
testifying as President Bush's nominee for Assistant Secretary 
of Energy for Congressional and Intergovernmental Affairs. This 
is a great honor and if confirmed, I will do my best to live up 
to the high standards expected of those entrusted with public 
office.
    I want to say thank you to Senator Landrieu for that 
wonderful introduction. I am honored to be here before your 
committee and I look forward to working with you on the 
Nation's problems and particularly those that are so profound 
in our own great State of Louisiana. I look forward to that.
    And I want to thank Chairman Tauzin and his lovely wife, 
Cecile, who is also with us today. They took time out of an 
incredibly busy schedule today to be here. The chairman's 
committee is in full mark up today on various aspects of the 
President's national energy policy and the fact that he is here 
is only another indication of the type of friend and mentor he 
has been to me over the years.
    It is often said that the hallmark of a great career is not 
how high you choose to climb a particular ladder but how many 
people you choose to bring along with you on the journey. There 
is no question in my mind that I am the larger beneficiary of 
my relationship with the Tauzin family.
    Chairman Bingaman, members of the committee, as I seek your 
approval for appointment to this office, I would like to take 
just one minute to share with you two important experiences, or 
lessons, that I think qualify me for this job. My experience in 
the Army taught me how to be a leader. I learned early how to 
organize a mission, how to motivate others, and how to lead by 
example. I learned it well and I learned it with a singular 
purpose--to destroy my opponent. I remember thinking as a young 
soldier that I had reached the very pinnacle of public service 
and in a way I did. I had. It was only later in the service of 
this very Congress as a staff member that I had come to fully 
appreciate the importance of my individual role in this 
service.
    Under the tutelage of Congressman Tauzin, I learned a 
fundamental lesson and it was that the interest of the American 
people are always, always our highest priority as a public 
servant and that the second part of that is that it's always in 
the interest of the American people for us, as servants, to 
find the common ground first rather than simply attacking our 
opponents.
    If confirmed for this position, I pledge to bring both of 
these important lessons to the table every day. My approach has 
been, and will continue to be, seeking out opportunities to 
build coalitions wherever possible and to find common-sense 
solutions to complex problems. It is in the interest of the 
public for me to do no less.
    With regard to the functions of the office I seek, I feel 
strongly that the key to a good relationship between the 
Congress and the Department of Energy is an open line of 
communication. The Office of Congressional Affairs is that line 
of communication. If you need information about a particular 
issue, we will work to get you a timely reply. If you need 
assistance with problems affecting your constituents, we will 
act immediately to help you solve those issues. My office will 
work aggressively to answer your inquiries and it will be my 
policy that every request from Capitol Hill be treated in an 
appropriate manner. Also important to that relationship with 
the Congress is our ability to keep you informed of 
departmental activity. The oversight function of this committee 
is vital. I will make every effort to ensure that the 
Department will provide witnesses for your oversight hearings, 
documents that comply with your requests, and cooperation with 
the committee in any investigation or other matter. Also, it is 
important for this office to serve the Congress by facilitating 
legislative matters. We will work diligently to help committees 
and individual members obtain the information necessary to 
draft or amend legislation. In addition to this relationship 
with the Congress, the office of Congressional and 
Intergovernmental Affairs is charged with maintaining an open 
and free dialogue with State and local officials, tribal 
governments, interested individuals, and organizations of all 
perspectives. This is a critical responsibility that I take 
very seriously.
    Finally, Mr. Chairman and members of the committee, I will 
manage my office effectively. From the hiring of staff to the 
purchase of office supplies, I can assure you that the 
taxpayers will receive their money's worth.
    I want to thank you, Mr. Chairman, Mr. Murkowski, and other 
members of the committee for allowing me to appear today. I 
look forward to working with you closely in the future. And I 
would be most happy to take any questions the Chairman may have 
or any other member of the committee may have at this time.
    [The prepared statement of Mr. Brouillette follows:]
   Prepared Statement of Dan R. Brouillette, Nominee to Be Assistant 
   Secretary of Energy (Congressional and Intergovernmental Affairs)
    Mr. Chairman and Members of the Committee:
    I am honored for the opportunity to appear before you today 
testifying as President Bush's nominee for Assistant Secretary of 
Energy for Congressional and Intergovernmental Affairs. This is a great 
honor, and if confirmed, I will do my best to live up to the high 
standards expected of those entrusted with public office. I am prepared 
for and excited about the tremendous challenges and responsibilities 
that accompany public service.
    Mr. Chairman, my experience in the United States Army taught me how 
to be a leader. I learned how to organize a mission, how to motivate 
others, and how to lead by example. I learned to do this well and with 
a singular purpose. My experience in a Congressional office taught me 
the real meaning of service. I learned that the interests of the 
American people are always the highest priority for the public servant. 
While these interests may manifest themselves in the form of partisan 
politics, a solution of compromise always yielded the most successful 
public policy.
    If confirmed for this position, I pledge to bring both of these 
experiences to the table. My approach has been and will continue to be 
seeking out opportunities to build coalitions wherever possible and to 
find common sense solutions.
    The key to a good relationship between the Congress and the 
Department of Energy is an open line of communication. The Office of 
Congressional Affairs is that line of communication. If you need 
information on an issue, we will work to get you a timely reply. If you 
need assistance with problems affecting your constituents, we will act 
immediately to help you solve those issues. My office will work 
aggressively to answer your inquiries, and it will be my policy that 
every request from Capitol Hill be treated in an appropriate manner.
    Also important to that relationship is our ability to keep Congress 
informed of departmental activity. The oversight function of this 
committee is vital. I will make every effort to ensure that the 
Department will provide witnesses for your oversight hearings, 
documents to comply with your requests, and cooperation with the 
committee in any investigation or other matter.
    And finally, it is important for this office to serve the Congress 
by facilitating legislative matters. We will work diligently to help 
committees and individual members obtain the information needed to 
draft or amend legislation. When requested, we will provide the 
appropriate Department of Energy witnesses and assist in the drafting 
of appropriate provisions during the committee process.
    In addition to this relationship with the Congress, the Office of 
Congressional and Intergovernmental Affairs is charged with maintaining 
an open and free dialogue with state and local authorities, tribal 
governments, and interested individuals and organizations of all 
perspectives. This is a critical responsibility that I take very 
seriously.
    Finally, if confirmed, I will manage my department effectively. 
From the hiring of staff to the purchase of office supplies, I can 
assure you that the American taxpayers will get their money's worth.
    I want to thank you, Mr. Chairman, for allowing me to appear and I 
look forward to working with you closely in the future. I would be 
happy to address any questions that you or the Committee may have.

    The Chairman. Thank you very much for your statement and 
I'll be very frank with you. My only reservation in looking at 
your bio is your time as a drill sergeant. I can remember the 
drill sergeants that I encountered in the Army Reserve and the 
active duty I did there, and those were not pleasant memories.
    Mr. Brouillette. Well, you've done a good job of 
intimidating this drill sergeant, let me tell you.
    [Laughter.]
    The Chairman. I hope you have gotten that behind you.
    [Laughter.]
    The Chairman. Obviously, we're anxious to be sure that your 
prior association with Chairman Tauzin does not warp your view 
of the priorities here on Capitol Hill.
    [Laughter.]
    The Chairman. Otherwise I have no concern about your 
appointment or confirmation to this position.
    Mr. Brouillette. Thank you very much.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Well, you know, looking back on basic 
training, or boot camp, or whatever you want to call it, it was 
miserable but I think we were all better people because of it. 
And as a consequence of your training, perhaps the Department 
of Energy is going to be a better department as a consequence 
of what you're going to bring to it. I hope that's the case.
    Mr. Brouillette. I certainly hope so as well.
    Senator Murkowski. We look forward to your confirmation, 
and I trust we will be able to move this with dispatch.
    Mr. Brouillette. Thank you very much.
    The Chairman. Senator Landrieu.
    Senator Landrieu. I have no other comments to add other 
than to say how proud we are of this particular nominee and how 
well qualified he is, you can see the very special person that 
he is. And I thank him for his agreeing to serve. As the 
Congressman said, this government would be well served if we 
had more people, Dan, like you, willing to make the sacrifices 
necessary. And particularly at this time, Mr. Chairman, with 
this issue we need strong leadership, steady hand, good common 
sense, and a person who is going to fight to find that middle 
ground, and I think we have such a nominee before us. Thank you 
for your willingness to serve.
    The Chairman. Senator Craig.
    Senator Craig. Mr. Chairman, thank you. First of all, let 
me turn to your former boss and let me congratulate you on the 
expeditious way you are handling the development of a national 
energy policy. I don't know of anything more critical that this 
Congress could do this year for our country and for its future 
than to move with our President and with the Congress to 
develop that, and you're well along the way. We trust this 
committee will move as expeditiously as you have in 
accomplishing that.
    As to you, Dan, my colleague and my ranking member here 
opines that your roots are in the House. I have only one 
comment. Your confirmation is in the Senate.
    [Laughter.]
    Mr. Brouillette. Well understood, sir.
    Senator Craig. Welcome. We look forward to working with 
you.
    Mr. Brouillette. Thank you very much.
    The Chairman. Senator Burns.
    Senator Burns. I have no statement. Just don't lose your 
touch on being a drill instructor.
    Mr. Brouillette. I will not.
    Senator Burns. You will need it.
    [Laughter.]
    The Chairman. Since that exhausts the questions of the 
committee, why don't we let the members have until 5 o'clock 
this evening to file any additional questions with the 
committee staff if they have any for the record for Mr. 
Brouillette. And with that, let us adjourn this hearing and 
proceed to the next. Thank you very much.
    Mr. Brouillette. Thank you, Mr. Chairman.
    [Whereupon, at 9:40 a.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
